No.

IN THE
SUPREME COURT OF THE UNITED STATES

October Term, 2020

HARRAH KERR ERE R ERI I RI IRI IIR NER IRIEL EKER EER EER AEE EEE EER

ANTONIO KEVIN McKOY, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent

HR AKAN KI NKR IN ER EIR REE R IRI IIRIIITIIIRELESELIIEIEE ESE IE SBI,

MOTION TO PROCEED IN FORMA PAUPERIS

HHRKK REE RER RRR ERE RE II IIA III IIIA BEBE EIIEIER EIR RETIREE ESA

Petitioner, Antonio Kevin McKoy, by his undersigned counsel, requests leave to
file a Petition for Writ of Certiorari without prepayment of costs and to proceed in
forma pauperis pursuant to Rule 39 of the Supreme Court Rules. Counsel was
appointed in the lower court-pursuant to 18 U.S.C. ยง 3006 and Rule 44, Fed. R. CR. P.

This the 10 day of May, 2021.

Respectfully submitted,

Vote, AA bbe, oe
RUDOLPH A. ASHTON, III

Panel Attorney,

Eastern District of North Carolina
N.C. State Bar No. 0125

Post Office Drawer 1389

New Bern, North Carolina 28563-1389
Telephone: (252) 633-3800

Email: RAshton@dunnpittman.com

 
